March 20, 2009

C. MICHAEL HARLOW
DISTRICT MANAGER, BALTIMORE DISTRICT

SUBJECT:          Audit Report – Baltimore District Financial Risk Audit
                  (Report Number FF-AR-09-123)

This report presents results of our audit of the                                  in the
Baltimore District and an overview of unit financial operations in the district based on
our Financial Risk Model (FRM) (Project Number 08BD009FF008). The objectives of
our audit were to determine whether judgmentally selected high-risk transactions were
supported and made in accordance with U.S. Postal Service policies, cash and stamp
stock levels were within authorized limits, and local disbursements were paid in
accordance with Postal Service policy. The U.S. Postal Service Office of Inspector
General (OIG) performed this self-initiated audit because our FRM showed that for all 4
quarters in fiscal year (FY) 2008, the Baltimore District had the highest financial risk of
any district. See Appendix A for additional information about this audit.

Conclusion

Based on the items we reviewed, judgmentally selected high-risk transactions were not
supported and made in accordance with Postal Service policies, cash and stamp stock
levels were above the authorized limits, and local disbursements were not paid in
accordance with Postal Service policy. In addition, internal controls were not in place
and effective for cash, stamp, and money order accountability. We have noted similar
issues in prior audits we conducted in the Baltimore District, most recently in the audit of
the                           .1 In addition, our FRM indicates that the district has a high
degree of financial risk at other retail units.

Significant Internal Control Weaknesses Were Identified

Our audits of the                                 disclosed that disbursement
transactions we tested were not always supported by bona fide receipts or other
documentation, stamp stock and cash levels were not properly managed, and local
disbursements were not always supported or processed properly. In addition, we noted
internal control weaknesses related to stamps, cash, and money orders. See Appendix
B for our detailed analysis of the findings. Appendix C presents the results of our

1
 Audit Report –                                       (Report Number FF-AR-09-01, dated December 12,
2008).
Baltimore District Financial Risk Audit                                          FF-AR-09-123




accountability examinations for the                                  . Appendix D
presents the results of our audit tests with details regarding the 15 conditions we
identified. Appendix E and Appendix F present the details of the $179,124 monetary
impact for questioned costs and the $4,655,528 non-monetary impact for accountable
items and assets at risk we identified, respectively. We will report these monetary and
non-monetary impacts in our Semiannual Report to Congress.

Unit management and craft employees often stated that they were unaware of financial
procedures because they have not received financial training. District and area
management agreed that Unit Managers often do not have sufficient knowledge of
financial procedures. Although various training classes are available online, the district
has not provided a formal, detailed financial training program for managers. Until
managers receive adequate training and the financial controls are functioning as
prescribed, the Postal Service has a significantly increased risk of financial losses in the
Baltimore District.

We recommend the District Manager, Baltimore District:

    1. Develop and implement a financial training program for Unit Managers and
       Supervisors at the

    2. Establish a system to monitor compliance with financial procedures.

    3. Develop an action plan (1) to assess whether the deficiencies noted at the
       individual stations, as shown in Appendix D of this report, exist elsewhere in the
       district and (2) to correct those deficiencies at the individual stations.

    4. Provide quarterly and annual summaries of unit compliance with financial
       procedures to the Capital Metro Area, showing how the issues identified in this
       report are being corrected.

Management’s Comments

Management agreed with our finding, recommendations, and monetary and non-
monetary impacts. Management agreed to provide financial training at the stations
cited in our report by April 30, 2009. The district will also implement a financial
scorecard for units containing elements including stock levels, cash counts, employee
items, and financial differences by May 1, 2009. The district presented its action plan
for identifying deficiencies at other units using this scorecard and for correcting the
deficiencies identified, and will provide the results of its compliance with financial
reporting requirements to the Capital Metro Area effective July 1, 2009. See Appendix
G for management’s comments in their entirety.




                                             2
Baltimore District Financial Risk Audit                                      FF-AR-09-123




Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions taken should resolve the issues identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact John Wiethop, Director, Field
Financial Central, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Joseph Corbett
   William P. Galligan
   Steven A. Darragh
   Kit R. Allshouse
   Sonny S. Hermes
   Vincent H. DeVito, Jr.
   Stephen J. Nickerson
   Steven R. Phelps
   Katherine S. Banks




                                           3
Baltimore District Financial Risk Audit                                         FF-AR-09-123




                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Post offices are the initial level where the Postal Service recognizes revenue from
operations. Postmasters or installation heads are responsible for collecting all receipts
to which the offices are entitled, accounting for all funds entrusted to them, and ensuring
that post offices meet all accounting objectives. Handbook F-101, Field Accounting
Procedures, dated July, 8, 2008, provides the procedures Postmasters and other
installation heads must follow to meet the financial responsibilities of the installation.

The Baltimore District is in the Capital Metro Area and includes over 700 postal retail
offices with the Point of Service (POS) system; these post offices reported more than
$238 million of revenue in FY 2008. The two units addressed in this audit reported
approximately $3.41 million of revenue during this period.2

The OIG performs periodic financial risk assessments. Based on financial data in the
Enterprise Data Warehouse, the OIG developed an FRM, which ranks the Postal
Service’s 80 districts with specific financial risk indicators. We selected the Baltimore
District because risk indicators in our model suggested the district had a high financial
risk compared to others around the country. The risk factors in our FRM are the
following.

      1. Revenue – all revenue (income) associated at a unit.

      2. Local Expenses – purchases made at local post offices for local expenditures,
         including supplies and services.

      3. Refund Expenses – refunds can be made for postage, fees, and other services.

      4. Miscellaneous Expenses – includes bank deposit differences and other
         discrepancies.

      5. Non-Local Expenses – all expenses for local units (such as cleaning and utilities)
         paid centrally through the San Mateo Accounting Service Center.

      6. Clerk Cash Management – measures whether units are complying with
         requirements for Clerks’ cash, including whether cash is counted at the
         prescribed frequency and whether the amount of cash maintained by Clerks is
         within limits set by Postal Service policy.

      7. Office Cash Management – measures whether units are maintaining the amount
         of cash authorized by Postal Service policy.

2
    Data obtained from the Standard Accounting for Retail system.


                                                           4
Baltimore District Financial Risk Audit                                           FF-AR-09-123




      8. Employee Related Items – includes amounts owed to the Postal Service for
         travel and salary advances, and shortages and overages resulting from Clerks’
         stamp and cash counts.

      9. Customer Account Management – measures districts with the highest
         percentage of differences in customer account balances by comparing source
         data to accounting records.

      10. Retail Stamp Stock Management – the amount of stamp stock a post office can
          maintain for sale to the public and the frequency with which the post office should
          count the stock.

      11. Overall Unit Stamp Stock Management – the total amount of stamp stock in
          excess of levels authorized by Postal Service policy, calculated based on prior
          year sales. This includes the amount sold directly to the public and the amount
          held in inventory.

      12. Contract Postal Units Management – measures the number of units with the
          most contract postal unit stock at risk. A contract postal unit is a privately
          operated entity that provides most postal retail services.

In developing risk scores for each of these factors, we assign a weight to each based on
our previous audits and investigative results.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit were to determine whether:

           Judgmentally selected high-risk transactions were supported and made in
           accordance with Postal Service policies.
           Cash and stamp stock accountability balances were within authorized limits at
           the two judgmentally selected units.
           Judgmentally selected local disbursements were allowable and processed
           according to Postal Service policies.

We conducted our limited scope audit at the                                   from
September 2008 to March 2009 in accordance with generally accepted government
auditing standards and included tests of internal controls that were necessary under the
circumstances.3 The standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives. We


3
    We conducted fieldwork at the sites from September 15 through 30, 2008.


                                                          5
        Baltimore District Financial Risk Audit                                                  FF-AR-09-123




        discussed our observations and conclusions with district management officials on
        January 22, 2009, and included their comments where appropriate.

        We relied on data obtained from the Postal Service’s Enterprise Data Warehouse
        Accounting Data Mart and performed specific internal control and transaction tests on
        that system’s data. We traced recorded financial transactions to and from supporting
        documentation and assessed the reliability of computerized data by comparing the
        computer records to source documents. In addition, we used Postal Service
        instructions, manuals, policies, and procedures as criteria to evaluate internal controls
        and data reliability. Finally, we evaluated whether the internal control structure over
        financial reporting and safeguarding of assets was implemented and functioning as
        designed; interviewed supervisors and employees; and observed operations.

        PRIOR AUDIT COVERAGE

        The OIG has not conducted audits at the                                    , but has issued
        the following reports in the past 3 years for units in the Baltimore District. Our work in
        the Baltimore District shows a history of district-wide noncompliance with Postal Service
        policies and procedures. Generally, management agreed with the findings and
        recommendations in the following reports. We have not followed up on the status of
        corrective actions at any of these units.

                                                                    Non-
                     Report          Final Report     Monetary    Monetary
 Report Title       Number                 Date        Impact      Impact             Report Results
Fiscal Year       FF-AR-07-148      April 20, 2007      $38,945    $265,587    Our audit identified internal
2007                                                                           control and compliance issues
Financial                                                                      related to cash and stamp
Installation                                                                   accountability, financial
Audit –                                                                        accounting and reporting, and
                                                                               safeguarding of assets.



Fiscal Year       FF-AR-08-064      January 7, 2008     $44,785   $2,032,886   Our audit identified 24 internal
2008                                                                           control and compliance issues
Financial                                                                      related to cash, stamp, and
Installation                                                                   money order accountability;
Audit –                                                                        financial accounting and
                                                                               reporting; post office boxes
                                                                               and caller services; local
                                                                               disbursements; SmartPay
                                                                               Purchase cards; and payroll.




                                                         6
        Baltimore District Financial Risk Audit                                                FF-AR-09-123




                                                                     Non-
                     Report           Final Report     Monetary    Monetary
 Report Title       Number                Date          Impact      Impact           Report Results
Fiscal Year       FF-AR-06-045      January 27, 2006    $166,629        N/A   Our audit identified internal
2006                                                                          control and compliance issues
Financial                                                                     related to cash and stamp
Installation                                                                  accountability, postage due
Audit –                                                                       accounts, time and
                                                                              attendance, money orders,
                                                                              contract postal unit
                                                                              accountability, master trust
                                                                              accounts, and post office
                                                                              boxes. We also identified
                                                                              issues with advance deposit
                                                                              accounts maintained by the
                                                                              Baltimore Business Mail Entry
                                                                              Unit.
Fiscal Year       FF-AR-05-117      April 25, 2005        $2,344        N/A   Our audit identified internal
2005                                                                          control and compliance issues
Financial                                                                     related to cash, stamp, and
Installation                                                                  key accountability procedures;
Audit –                                                                       money orders; Voyager
                                                                              Cards; and nonprofit mail
                                                                              acceptance.




                                                          7
Baltimore District Financial Risk Audit                                                                FF-AR-09-123




                                  APPENDIX B: DETAILED ANALYSIS

Retail Associates’ Cash Not Properly Managed

Fifteen Retail Associates (RA) at both units exceeded the authorized cash retained limit
by $711. Supervisors at both units stated that cash limits were established before they
became Customer Service Supervisors, and they were unaware the cash was above
the authorized limit. In addition, unit management at                   did not conduct
examinations of the RAs’ cash credits at the required frequency. The Supervisor stated
that it was an oversight that they did not conduct the accountability examinations at the
prescribed frequency.

Dormant Cash Credits Not Closed

Unit management at both units did not close seven inactive RA cash credits totaling
$1,065. Two RAs at                      were removed in 1996, but their accountabilities
remained open. Supervisors at both stations stated that it was an oversight that they
did not close the accountabilities. When units do not close inactive accounts, there is
an increased risk that assets will be lost without detection.

Stamp Stock Limits Exceeded

Both units exceeded the retail floor stock level for the same period last year by
$252,9534 and the total stock limit by $509,267.5 The Supervisors were not aware of
the stock limits and did not receive financial training.

Duplicate Key Procedures Not Followed

Neither unit maintained duplicate key envelopes for four employees, and five employees
had not filed copies of their POS system passwords in Postal Service (PS) Form 3977,
Duplicate Key Envelope. The Supervisors stated this was an oversight. In addition, the
          Supervisor stated that other duties, such as managing retail operations and
overseeing the passport window, took priority.

Vending Procedures Not Followed

           unit management did not submit $7,391 of vending stamp stock to the stamp
distribution office (SDO) for destruction when the vending machine was removed in
October 2007. In addition, the unit did not deposit vending cash totaling $40. The RA
who was assigned to the vending accountability and the Customer Service Supervisor
both stated they did not perform a final accountability examination and submit the stock
for destruction due to oversight.


4
    The units’ combined allowable threshold for retail floor stock was $103,798.57 on September 16, 2008.
5
    The units’ combined maximum authorized limit was $311,395.71 on September 15, 2008.


                                                           8
Baltimore District Financial Risk Audit                                                         FF-AR-09-123




Stamp Stock Procedures Not Followed

          unit management did not follow proper procedures to account for stock
returned to the unit from the SDO. During April 2008, the unit submitted retail floor
stock totaling $23,141 to the SDO; this stock was returned to the unit because it was
sent out of cycle and improperly documented. The Supervisor stated she did not open
the box of stamps returned from the SDO because she believed it was automated
postal center stamp stock, for which she was not the custodian. In addition, she stated
she was not aware of the requirement to enter the stamp stock into the POS system
after the unit received the stock from the SDO.

Money Order Procedures Not Followed

Units did not always adhere to prescribed procedures for money orders. Specifically, at
                 , we identified seven voided money orders totaling $3,397 that unit
management did not destroy. The Supervisor stated she was unaware of the
requirement to destroy voided money orders. We also noted that              unit
management was unable to locate 182 blank money orders valued at $72,8006 that
were listed in the POS system. The Customer Service Supervisor was aware of neither
the requirement to account for money orders listed in POS, nor the fact that money
orders were missing from the inventory.

The                                 maintained 10,092 obsolete domestic and
international money orders, valued at $4.04 million, that were not recorded in the POS
system. The Supervisors at both units stated they were unaware of the requirement to
destroy obsolete money orders.

Customer Trust Accounts Not Monitored

The                   did not reconcile customer advance deposit accounts, resulting in
a $916 balance discrepancy. The RA responsible for this task stated she was unaware
of the requirement to reconcile trust account balances.

See Appendix F for the non-monetary impact associated with RA cash; dormant cash
credits; excess, vending, and returned stamp stock; and customer trust accounts.

Outstanding Employee Items Not Monitored

Unit management did not properly document and resolve outstanding employee items
totaling $8,109.7 This condition occurred because the Customer Service Supervisor
was unaware of the requirement, did not maintain adequate documentation, and had
other duties that took priority.


6
    The OIG assesses a $400 value to each blank money order.
7
    The employee items include emergency salary advances and employee cash overages and shortages.


                                                       9
Baltimore District Financial Risk Audit                                       FF-AR-09-123




Financial Differences Not Supported

Personnel at both units did not research and resolve 52 financial differences totaling
$33,065. The Customer Service Supervisors stated they were unaware of the policies
and procedures regarding resolving financial differences because of inadequate
financial training.

Disbursements Not Supported or Properly Processed

Personnel at both units did not always properly document, support, or process local
disbursements totaling $20,184. Of these local disbursements, we consider $8,741
questioned costs because the purchases were not supported by authentic receipts. For
example, we noted that PS Forms 3533, Application and Voucher for Refund, did not
have support, and employees did not properly complete the required forms. In addition,
                 personnel paid monthly invoices using no-fee money orders instead of
processing invoices using the preferred payment methods, and they improperly
processed local temporary cash purchases. We also noted that
personnel improperly processed Business Reply Mail™ customers’ trust account
refunds with no-fee money orders. The Customer Service Supervisors and RAs stated
they were unaware of the proper procedures for processing local disbursements and
had not received financial training.

See Appendix E for the monetary impact associated with employee items, financial
differences, and unsupported disbursements. See Appendix D for a list of the specific
internal control issues identified at the individual units and the applicable criteria.




                                           10
Baltimore District Financial Risk Audit                                                               FF-AR-09-123




              APPENDIX C: SUMMARY OF ACCOUNTABILITY EXAMINATIONS

                                                                                                     Grand Total
                                                                                                      for Both
 Accountability              Shortages           Overages          Shortages          Overages          Units
Unit Reserve
                                 $123,582                   $0                 $0              $12
Stock
Unit Cash
                                          $4                $0                 $0              $0
Reserve
Retail Floor
                                          $0          $3,296             $5,356                $0
Stock
Vending Credit                            $0                $0                 $0             $157
RA Cash
                                       $267                 $0                 $0              $15
Retained
Dormant Retail
Associate Cash                            $0             $605                  $0             $152
Retained
Total per Unit                   $123,853             $3,901             $5,356               $336

Shortages8                                                                                              $129,209

Overages                                                                                                  $4,237




8
    We made two referrals to the OIG Office of Investigations for the shortages identified.


                                                             11
Baltimore District Financial Risk Audit                                                                                       FF-AR-09-123



                                                  APPENDIX D: SUMMARY OF AUDIT FINDINGS



                           Internal Control Deficiency9                                                                Criteria


                                             Cash, Stamp Stock, and Money Orders
        Fifteen RAs exceeded the authorized cash retained limit.   x    x Handbook F-101, Section 13-8.2
        Unit management did not properly account for $23,141 in         x Handbook F-101, Section 11-6.8
        stamp stock returned to the unit from the SDO in April
        2008 by inputting the stamp stock in the POS system.
        Seven inactive cash credits totaling $1,065 were not       x    x Handbook F-101, Section 13-9.3
        closed for inactivity.
        Unit management did not conduct timely examinations of     x        Handbook F-101, Section 13-9.3
        cash retained accountabilities.
        Unit management did not destroy seven voided money              x Handbook F-101, Section 10-5.1
        orders totaling $3,397.
        Unit management was unable to locate 182 blank money            x Handbook F-101, Section 10-4.1
                                  10
        orders totaling $72,800 that were listed in the POS
        system.
        Unit personnel did not destroy 10,092 obsolete or          x    x Handbook F-101, Section 11-6.2
        damaged money orders, valued at $4.04 million.
        The total office accountability exceeded the 3-month       x    x Handbook F-101, Section 11-3.4
        stamp stock limit by a combined total of $509,267.11
        The unit’s retail floor stock exceeded the 2-week postage  x    x Handbook F-101, Section 14-2.3
        sales limit by a combined total of $252,953.12



9
  An “x” in the                                    column indicates the location where we identified the deficiency.
10
   The OIG assesses a $400 value to each blank money order.
11
   The unit’s combined maximum authorized limit was $311,395.71 on September 15, 2008.
12
   The unit’s combined allowable threshold for retail floor stock was $103,798.57 on September 16, 2008.


                                                                                   12
Baltimore District Financial Risk Audit                                                                            FF-AR-09-123




                           Internal Control Deficiency9                                                           Criteria


          Unit management did not maintain duplicate key                             x      x     Handbook F-101, Section 3-8.2.1
          envelopes for employees.
          The unit did not remit funds totaling $40 from vending                            x     Handbook PO-102, Self Service
          sales after the accountability was closed, or remit $7,391                              Vending Operational and Marketing
          of stamp stock to the SDO.                                                              Program, Section 582, May 1999,
                                                                                                  updated with Postal Bulletin revisions,
                                                                                                  August 16, 2007
          Unit personnel did not monitor or reconcile master trust        x                       Handbook F-101, Section 17-4.2
          account balances, resulting in a balance discrepancy of
          $916.
                                            Employee Items and Financial Differences
          Units did not monitor or promptly clear $8,109 in           x   x Handbook F-101, Section 15-1.3
                            13
          employee items.
          The unit did not monitor and resolve financial              x   x Handbook F-101, Section 8-3
          differences. We identified 52 unresolved financial
          differences totaling $33,065 for both units over a
          12-month period ending July 31, 2008.
                                                            Disbursements
          Unit personnel did not always properly document,            x   x Handbook F-101, Sections 19 and 21
          support, or process local disbursements (including
          refunds) totaling $20,184. We consider $8,741
          questioned costs because these purchases were not
          supported by authentic receipts.




13
     The employee items include emergency salary advances and employee cash overages and shortages.


                                                                              13
Baltimore District Financial Risk Audit                                              FF-AR-09-123



                     APPENDIX E: SUMMARY OF MONETARY IMPACT

This table presents the monetary impacts identified during the audit, rounded to the
nearest dollar. We will report these funds in our Semiannual Report to Congress.

                                            Questioned Costs

    Finding Description                                            Recoverable    Unrecoverable
Retail Floor Stock                               -        $5,356              -          $5,356
Shortages
Unit Cash Reserve                              $4              -            $4                  -
Shortages
Unit Reserve Stock                         123,582             -        123,582                 -
Shortages
Cash Retained Shortage                         267             -            267                 -
Unresolved Employee Items                    8,038            71          8,109                 -
Unresolved Financial                         6,936        26,129         33,065                 -
Differences
Unsupported Local                            7,059         1,682              -           8,741
Disbursements
Totals                                    $145,886    $33,238         $165,027          $14,097
Grand Total                                                                            $179,124




                                                     14
Baltimore District Financial Risk Audit                                      FF-AR-09-123



                  APPENDIX F: SUMMARY OF NON-MONETARY IMPACT

This table presents the non-monetary impacts identified during the audit, rounded to the
nearest dollar. We will report these funds in our Semiannual Report to Congress.

                             Accountable Items and Assets at Risk
                Description                                                   Total
Cash Retained Exceeded Authorized                      $685          $26              $711
Limit
Unrecorded Stamp Stock                                     -     23,141           23,141
Inactive RA Cash Credits Not Closed                      913        152            1,065
Voided Money Orders Not Destroyed                          -      3,397            3,397
Missing Money Orders                                       -     72,800           72,800
Obsolete Money Orders Not Destroyed                3,632,000    404,800        4,036,800
Excess Total Unit Stock                              280,856    228,411          509,267
Cash Not Deposited From Vending                            -         40               40
Machine Closure
Stamp Stock Not Returned From                              -        7,391          7,391
Vending Accountability Closure
Trust Account Balances Not                                 -         916               916
Reconciled
Totals                                         $3,914,454      $741,074      $4,655,528




                                              15
Baltimore District Financial Risk Audit                      FF-AR-09-123



                         APPENDIX G: MANAGEMENT’S COMMENTS




                                          16
Baltimore District Financial Risk Audit        FF-AR-09-123




                                          17
Baltimore District Financial Risk Audit        FF-AR-09-123




                                          18
